a
I
2311 Douglas Street COCKLE

* E-Mail Address:

Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923

1-800-225-6964

(402) 342-2831

Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

COMMONWEALTH OF PENNSYLVANIA,
Petitioner,
v.
MICHAEL J. HICKS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7263 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary .
oo bez, 6 lilt Qutawh, hele
My Commission Expires Nov 24, 2020 'e

Notary Public Affiant

 

38636
